                               NATIONAL SCIENCE FOUNDATION
                                       4201 WILSON BOULEVARD
                                      ARLINGTON, VIRGINIA 22230
                                                                            case ~Ioseou-
                                                                                        - Page 1 of 1



        OFFICE OF
   INSPECTORGENERAL



  MEMORANDUM

 Date:           July 22, 1999

 To:             File No. I99070030

 From:

 Through:

 Re:

                                 ..
 Background                I




                                                        he had been promised a $500.00
 NSF travel grant for the                               eld from April 12 - 14, 1999. Mr.
                                                          July 14, 1999, and tha
              he chair of the conference, had failed to respond to any of his faxes.
                                                                                    w
 Investigation

                                      the symposium administrator, at
                                       that a check in the amount of
                                   on July 20. She faxed us a copy of this check. We also
 e-mailed                              him to notify us upon receipt of the check. He
 responded by e-mail and stated that he had received it.


 Findings

-has                 now been paid the $500.00 he
              was made prior to our offike contacting
                                       ;.-
                                      --'.a
             This case is closed.
                                                                      *-'
